  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL



BLUE CROSS BLUE SHIELD OF GEORGIA
         OVERSTATED ITS
MEDICARE SEGMENT PENSION ASSETS
   AND UNDERSTATED MEDICARE’S
  SHARE OF THE EXCESS LIABILITIES
        AS OF MAY 31, 2009



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                         June 2013
                                                       A-07-12-00397
                            Office of Inspector General
                                            https://oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices


     THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
 OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Blue Cross Blue Shield of Georgia, a terminated Medicare contractor, overstated the
Medicare segment pension assets by $13,077 as of May 31, 2009. In addition, Blue
Cross Blue Shield of Georgia understated Medicare’s share of excess pension liabilities
by $8,646 as a result of the segment closing adjustment on May 31, 2009.


WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contract and the Cost Accounting Standards
(CAS). The Centers for Medicare & Medicaid Services (CMS) incorporated this requirement
into the Medicare contracts beginning with fiscal year 1988. In addition, in situations such as
contract terminations, CAS 413 requires contractors to identify excess pension assets and
liabilities allocated to the Medicare segment, in accordance with the CAS. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

The objectives of this review were to determine whether Blue Cross Blue Shield of Georgia
(BCBSGA) complied with Federal requirements and the Medicare contracts’ pension
segmentation requirements when (1) implementing the prior audit recommendation to decrease
Medicare segment pension assets as of June 30, 2006, (2) updating the Medicare segment’s
pension assets from June 30, 2006, to May 31, 2009, and (3) determining Medicare’s share of the
Medicare segment excess pension liabilities as a result of the termination of the Medicare
contracts.

BACKGROUND

BCBSGA administered Medicare Part A operations under cost reimbursement contracts with
CMS until the contractual relationship was terminated effective May 31, 2009.

On June 30, 2006, WellPoint Health Networks, Inc., Pension Accumulation Plan assets were
merged into the WellPoint Cash Balance Pension Plan, which included the BCBSGA Medicare
segment. On January 1, 2007, WellPoint, Inc. (WellPoint), consolidated its Government
contracting segments into one subsidiary, called National Government Services, Inc. (NGS).
This consolidation did not include the BCBSGA Medicare segment, which was maintained
separately from other Medicare operations. Thus, although we are addressing this report to
NGS, we will associate the term BCBSGA with our findings and recommendations regarding the
segmentation.

We performed a prior pension segmentation audit at BCBSGA (A-07-10-00344, issued June 20,
2011), which brought the Medicare segment pension assets to June 30, 2006. We recommended
that BCBSGA decrease its Medicare segment pension assets by $164,098 and, as a result,
recognize $2,823,263 as the Medicare segment pension assets as of June 30, 2006.



   Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                         i
In addition, upon the termination of its Medicare contracts, BCBSGA identified Medicare’s
share of the Medicare segment excess pension liabilities to be $593,940.

WHAT WE FOUND

BCBSGA implemented the prior audit recommendation to recognize $2,823,263 as the Medicare
segment pension assets as of June 30, 2006. Regarding our second objective, BCBSGA
identified Medicare segment pension assets of $1,084,633 as of May 31, 2009; however, we
determined that the Medicare segment pension assets were $1,071,556 as of that date. Therefore,
BCBSGA overstated the Medicare segment pension assets by $13,077. BCBSGA overstated the
Medicare segment pension assets because it did not calculate them in accordance with Federal
requirements and the Medicare contracts’ pension segmentation language when updating the
Medicare segment pension assets from June 30, 2006, to May 31, 2009.

Regarding our third objective, BCBSGA computed Medicare’s share of the Medicare segment
excess pension liabilities to be $593,940 as of May 31, 2009 (the effective date of the
termination of BCBSGA’s Medicare contract); however, we determined that Medicare’s share of
the Medicare segment excess pension liabilities was $602,586 as of that date. The difference,
$8,646, constituted allowable Medicare costs that BCBSGA did not include in its segment
closing adjustment. BCBSGA understated Medicare’s share of excess pension liabilities by
$8,646, because it (1) overstated the Medicare segment assets as of May 31, 2009 and (2) did not
comply with Federal requirements when calculating Medicare’s share of excess pension
liabilities.

WHAT WE RECOMMEND

We recommend that BCBSGA:

    •   decrease Medicare segment pension assets as of May 31, 2009, by $13,077 and recognize
        $1,071,556 as the Medicare segment pension assets and

    •   increase Medicare’s share of the Medicare segment excess pension liabilities by $8,646
        and submit for reimbursement $602,586 as Medicare’s share of the Medicare segment
        excess pension liabilities due to the segment closing calculation.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NGS concurred with our findings and
recommendations. BCBSGA’s Medicare contract was transitioned to NGS effective
November 17, 2006; therefore, NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report; we
accepted these suggestions and have incorporated them into this final report.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                             ii
                                                    TABLE OF CONTENTS

INTRODUCTION ................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objectives .................................................................................................................... 1

           Background .................................................................................................................. 1

           How We Conducted This Review................................................................................ 2

FINDINGS ............................................................................................................................... 2

           Prior Audit Recommendation ...................................................................................... 3

           Update of Medicare Segment Pension Assets ............................................................. 3
                 Contributions and Transferred Prepayment Credits Overstated ...................... 3
                 Net Transfers Understated ............................................................................... 4
                 Earnings, Net Expenses Overstated ................................................................. 4

           Medicare Segment Closing Adjustment ...................................................................... 4
                 Medicare Segment Excess Pension Liabilities as of May 31, 2009 ................ 4
                 Medicare’s Share of the Medicare Segment Excess Pension Liabilities ......... 4

RECOMMENDATIONS ......................................................................................................... 5

AUDITEE COMMENTS......................................................................................................... 5

OFFICE OF INSPECTOR GENERAL RESPONSE .............................................................. 5

APPENDIXES

    A: Audit Scope and Methodology .................................................................................... 6

    B: Statement of Market Value of Pension Assets for
       the Wellpoint Cash Balance Pension Plan
       for the Period June 30, 2006, to January 1, 2010......................................................... 8

    C: Federal Requirements Related to Pension
       Segmentation and Segment Closing Adjustment......................................................... 10

    D: Calculation of Aggregate Medicare Percentage .......................................................... 13

    E: Related Office of Inspector General Reports ............................................................... 14



Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                                                         iii
   F: Auditee Comments ....................................................................................................... 15




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                                              iv
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contract and the Cost Accounting Standards
(CAS). The Centers for Medicare & Medicaid Services (CMS) incorporated this requirement
into the Medicare contracts beginning with fiscal year 1988. In addition, in situations such as
contract terminations, CAS 413 requires contractors to identify excess pension assets and
liabilities allocated to the Medicare segment, in accordance with the CAS. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

OBJECTIVES

Our objectives were to determine whether Blue Cross Blue Shield of Georgia (BCBSGA)
complied with Federal requirements and the Medicare contracts’ pension segmentation
requirements when (1) implementing the prior audit recommendation to decrease the Medicare
segment pension assets as of June 30, 2006, (2) updating the Medicare segment’s pension assets
from June 30, 2006, to May 31, 2009, and (3) determining Medicare’s share of the Medicare
segment excess pension liabilities as a result of the termination of the Medicare contracts.

BACKGROUND

BCBSGA administered Medicare Part A operations under cost reimbursement contracts with
CMS until the contractual relationship was terminated effective May 31, 2009.

On June 30, 2006, WellPoint Health Networks, Inc., Pension Accumulation Plan assets were
merged into the WellPoint Cash Balance pension plan, which included the BCBSGA Medicare
segment. On January 1, 2007, WellPoint, Inc. (WellPoint), consolidated its Government
contracting segments into one subsidiary, called National Government Services, Inc. (NGS).
This consolidation did not include the BCBSGA Medicare segment, which was maintained
separately from other Medicare operations. Thus, although we are addressing this report to
NGS, we will associate the term BCBSGA with our findings and recommendations regarding the
segmentation.

We performed a prior pension segmentation audit at BCBSGA (A-07-10-00344, issued June 20,
2011), which brought the Medicare segment pension assets to June 30, 2006. We recommended
that BCBSGA decrease its Medicare segment pension assets by $164,098 and, as a result,
recognize $2,823,263 as the Medicare segment pension assets as of June 30, 2006.

In addition, upon the termination of its Medicare contracts, BCBSGA identified Medicare’s
share of the Medicare segment excess pension liabilities to be $593,940.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                            1
HOW WE CONDUCTED THIS REVIEW

We reviewed BCBSGA’s implementation of the prior audit recommendation; identification of its
Medicare segment; and update of Medicare segment assets from June 30, 2006, to May 31, 2009;
and the Medicare segment’s closing calculation as of May 31, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDINGS

BCBSGA implemented the prior audit recommendation to recognize $2,823,263 as the Medicare
segment pension assets as of June 30, 2006. Regarding our second objective, BCBSGA
identified Medicare segment pension assets of $1,084,633 as of May 31, 2009; however, we
determined that the Medicare segment pension assets were $1,071,556 as of that date. Therefore,
BCBSGA overstated the Medicare segment pension assets by $13,077. BCBSGA overstated the
Medicare segment pension assets because it did not calculate them in accordance with Federal
requirements and the Medicare contracts’ pension segmentation language when updating the
Medicare segment pension assets from June 30, 2006, to May 31, 2009.

Appendix B presents details of the WellPoint Cash Balance Pension Plan assets from January 1,
2006, to January 1, 2010, as determined during our audit. Table 1 below summarizes the audit
adjustments required to update Medicare segment pension assets in accordance with Federal
requirements.

                    Table 1: Summary of Audit Adjustments
                                          Per Audit       Per                        Difference
                                                       BCBSGA
Prior Audit Recommendation                $2,823,263    $2,823,263                           $0

Update of Medicare Segment Assets
  Contributions and Prepayment Credits                         41,553       42,526        (973)
  Benefit Payments                                            931,022      931,022            0
  Net Transfers Out                                         (767,169)    (752,397)     (14,772)
  Earnings, Net Expenses                                     (95,069)     (97,737)        2,668
Overstatement of Medicare Segment Assets                                              ($13,077)
as of May 31, 2009




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                             2
Regarding our third objective, the CAS requires that a segment closing adjustment be made to
recognize Medicare’s share of the Medicare segment excess pension liabilities as a result of the
termination of the Medicare contracts. BCBSGA computed Medicare’s share of the Medicare
segment excess pension liabilities to be $593,940 as of May 31, 2009 (the effective date of the
termination of BCBSGA’s Medicare contract); however, we determined that Medicare’s share of
the Medicare segment excess pension liabilities was $602,586 as of that date. The difference,
$8,646, constituted allowable Medicare costs that BCBSGA did not include in its segment
closing adjustment. BCBSGA understated Medicare’s share of excess pension liabilities by
$8,646, because it (1) overstated the Medicare segment assets as of May 31, 2009 and (2) did not
comply with Federal requirements when calculating Medicare’s share of excess pension
liabilities.

PRIOR AUDIT RECOMMENDATION

BCBSGA implemented the prior audit recommendation (A-07-10-00344) which recommended
that BCBSGA decrease Medicare segment pension assets by $164,094 and recognize $2,823,263
of Medicare segment pension assets as of June 30, 2006.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

The Medicare contract requires that Medicare contractors update the Medicare segment pension
assets yearly in accordance with the CAS. The CAS requires that the assets base be adjusted by
contributions, permitted unfunded accruals, income, benefit payments, and expenses.

For details on the Federal requirements and the relevant language of the Medicare contract, see
Appendix C.

The following are our findings regarding the update on the Medicare segment pension assets
from June 30, 2006, to May 31, 2009.

Contributions and Transferred Prepayment Credits Overstated

The audited contributions and transferred prepayment credits are based on the assignable pension
costs. In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit. For
details on these Federal requirements, see Appendix C.

BCBSGA overstated contributions and transferred prepayment credits by $973 for the Medicare
segment. The overstatement occurred primarily because BCBSGA did not correctly calculate
the assignable pension costs upon which the contributions and prepayment credits were based.
As a result, BCBSGA overstated the Medicare segment pension assets by $973.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                              3
Net Transfers Understated

BCBSGA understated net transfers out of the Medicare segment by $14,772. The
understatement occurred primarily because BCBSGA incorrectly transferred participants into the
Medicare segment during 2007. This understatement of the net transfer adjustment resulted in an
overstatement of the Medicare segment pension assets by $14,772.

Earnings, Net Expenses Overstated

BCBSGA overstated investment earnings, less administrative expenses, by $2,668 for the
Medicare segment because it used incorrect contributions and transferred prepayment credits and
incorrect net transfers (all discussed above), to develop the Medicare segment pension asset base.
In our audited update, we allocated earnings, net expenses based on the applicable CAS
requirements. For details on applicable Federal requirements, see Appendix C.

MEDICARE SEGMENT CLOSING ADJUSTMENT

Medicare Segment Excess Pension Liabilities as of May 31, 2009

Federal regulations (Appendix C) require BCBSGA to have computed a Medicare segment
closing adjustment as a result of the termination of its Medicare contract. BCBSGA identified
$593,940 in Medicare segment excess pension liabilities as of May 31, 2009. However, we
calculated the Medicare segment excess pension liabilities to be $607,017 as of that date. (It is
necessary to calculate the pension assets and liabilities as well as any adjustments for the
Medicare segment before calculating Medicare’s share.) Therefore, BCBSGA understated the
excess pension liabilities by $13,077. The understatement occurred because BCBSGA
overstated the Medicare segment’s final market value of pension assets as of May 31, 2009. The
development of excess liabilities was used to identify Medicare’s share of Medicare segment’s
excess pension liabilities.

Medicare’s Share of the Medicare Segment Excess Pension Liabilities

BCBSGA calculated the aggregate Medicare percentage (that is, the percentage that reflects
Medicare’s share of the Medicare segment excess pension liabilities) as 100 percent. However,
we calculated the aggregate Medicare percentage as 99.27 percent (see Appendix D) using the
Medicare segment pension costs developed during the prior pension costs claimed reports
(A-07-94-00777, A-07-07-00238, and A-07-10-00345, all cited in Appendix E) and current
pension costs claimed (A-07-12-00398) audits as required by the CAS. For details on the
Federal requirements regarding the aggregate Medicare percentage, see Appendix C.

BCBSGA calculated $593,940 as Medicare’s share of the excess pension liabilities as of May 31,
2009; however, we determined that Medicare’s share of the excess pension liabilities was
$602,586 as of May 31, 2009 (see Table 2). The difference, $8,646, constituted allowable
Medicare costs that BCBSGA did not include in its Medicare segment closing adjustment.
BCBSGA understated Medicare’s share of the excess Medicare segment pension liabilities



Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                               4
because it (1) understated the Medicare segment’s excess pension liabilities (as discussed above)
and (2) it did not compute the aggregate Medicare percentage as required by CAS.

Table 2 below shows our calculation of Medicare’s share of the excess pension liabilities.

            Table 2: Medicare’s Share of Excess Pension Liabilities
                        Excess Medicare        Aggregate       Excess Liabilities
                            Segment            Medicare          Attributable to
                         Liabilities (A)    Percentage (B)     Medicare (A x B)
Per Audit                       $607,017              99.27%            $602,586
Per BCBSGA                        593,940           100.00%               593,940
 Difference                                                              ($8,646)

                                       RECOMMENDATIONS

We recommend that BCBSGA:

    •   decrease Medicare segment pension assets as of May 31, 2009, by $13,077 and recognize
        $1,071,556 as the Medicare segment pension assets and

    •   increase Medicare’s share of the Medicare segment excess pension liabilities by $8,646
        and submit for reimbursement $602,586 as Medicare’s share of the Medicare segment
        excess pension liabilities due to the segment closing calculation.

                                       AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our findings and
recommendations. BCBSGA’s Medicare contract was transitioned to NGS effective
November 17, 2006; therefore, NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report. These
comments clarified information pertaining to entity and pension plan names as well as the
effective date of the DeCare Dental, LLC, acquisition (referred to in Appendix B).

NGS’s comments are included in their entirety as Appendix F.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s comments, we accepted the technical comments and have incorporated
them into this final report.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                              5
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed BCBSGA’s implementation of the prior audit recommendation; identification of its
Medicare segment; and update of Medicare segment assets from June 30, 2006, to May 31, 2009;
and the Medicare segment’s closing calculation as of May 31, 2009.

Achieving our objectives did not require us to review BCBSGA’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment, the
update of the Medicare segment’s assets, and the Medicare segment’s final assets and liabilities,
to ensure adherence to the Medicare contracts, CAS 412, and 413.

We completed our audit work in November and December 2012.

METHODOLOGY

To accomplish our objectives, we took the following steps:

    •     We reviewed the portions of the Federal Acquisition Regulation, CAS, and the
          Medicare contracts applicable to this audit.

    •     We reviewed the annual actuarial valuation reports prepared by BCBSGA’s actuarial
          consulting firms, which included the pension plan’s assets, liabilities, normal costs,
          contributions, benefit payments, investment earnings, and administrative expenses. We
          used this information to calculate the Medicare segment assets.

    •     We reviewed the Medicare segment closing calculation prepared by BCBSGA’s staff
          and its actuarial consulting firms.

    •     We obtained and reviewed the pension plan documents and Department of
          Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
          assets.

    •     We interviewed BCBSGA staff responsible for identifying the Medicare segment to
          determine whether the segment was properly identified in accordance with the Medicare
          contracts.

    •     We reviewed BCBSGA’s accounting records to verify the segment identification and
          benefit payments made to the Medicare segment.

    •     We reviewed the prior segmentation audit performed at BCBSGA (A-07-10-00344) to
          determine the beginning market value of assets.

    •     We provided the CMS Office of the Actuary with the actuarial information necessary
          for it to calculate the Medicare segment pension assets from June 30, 2006, to

Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                              6
          May 31, 2009, and the Medicare segment’s excess pension liabilities as of
          May 31, 2009.

    •     We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used this information
obtained during these audits during this review:

    •    BCBSGA’s pension costs claimed for Medicare reimbursement (A-07-12-00398) and

    •    NGS’s pension segmentation (A-07-13-00408) and pension costs claimed for Medicare
         reimbursement (A-07-13-00409).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                             7
                             APPENDIX B: STATEMENT OF MARKET VALUE OF PENSION ASSETS
                                  FOR THE WELLPOINT CASH BALANCE PENSION PLAN
                                  FOR THE PERIOD JANUARY 1, 2006, TO JANUARY 1, 2010

                                                                                                NGS           BCBSGA
                                                                              “Other”         Medicare        Medicare
                  Description                           Total Company         Segment         Segment         Segment

     Assets January 1, 2006                     1/          $992,586,626      $956,748,658     $35,837,968

     Prepayment Credits                         2/                     0        (2,115,825)     2,115,825               0
     Contributions                              3/            97,500,000        97,500,000              0               0
     Other Transactions                         4/           863,505,475       825,430,076     35,252,136       2,823,263
     Earnings                                   5/           175,751,241       170,316,450      5,234,629         200,162
     Benefit Payments                           6/          (128,402,135)     (121,303,236)    (6,741,900)       (356,999)
     Administrative Expenses                    7/                     0                 0              0               0
     Transfers                                  8/                     0         2,279,142     (2,141,639)       (137,503)

     Assets January 1, 2007                              $2,000,941,207     $1,928,855,265    $69,557,019      $2,528,923

     Prepayment Credits                                                0        (3,144,028)     3,144,028               0
     Contributions                                               326,001           326,001                              0
     Other Transactions                                                0                 0               0              0
     Earnings                                                157,298,856       151,391,866       5,699,406        207,584
     Benefit Payments                                       (171,387,896)     (164,781,183)     (6,604,168)        (2,545)
     Administrative Expenses                                           0                 0               0              0
     Transfers                                                         0         6,362,462      (5,796,394)      (566,068)

     Assets January 1, 2008                              $1,987,178,168     $1,919,010,383    $65,999,891      $2,167,894

     Prepayment Credits                                                0        (3,122,135)      3,104,584         17,551
     Contributions                                            58,000,000        58,000,000               0              0
     Other Transactions                                                0                 0               0              0
     Earnings                                               (468,249,433)     (452,004,182)    (15,716,563)      (528,688)
     Benefit Payments                                       (119,542,179)     (110,699,660)     (8,824,001)       (18,518)
     Administrative Expenses                                  (1,160,212)       (1,119,960)        (38,942)        (1,310)
     Transfers                                                         0        13,046,925     (13,343,911)       296,986

     Assets January 1, 2009                              $1,456,226,344     $1,423,111,371    $31,181,058      $1,933,915

     Prepayment Credits                                                0        (4,552,169)      4,528,167         24,002
     Contributions                                            33,000,000        33,000,000               0              0
     Other Transactions                         9/            19,401,325        19,401,325               0              0
     Earnings                                                256,877,991       250,840,139       6,010,310         27,542
     Benefit Payments                                       (133,000,077)     (126,065,157)     (6,381,960)      (552,960)
     Administrative Expenses                                  (3,346,324)       (3,267,669)        (78,296)          (359)
     Transfers                                                         0         6,077,288      (5,716,704)      (360,584)

     Assets January 1, 2010                    10/       $1,629,159,259     $1,598,545,128    $29,542,575      $1,071,556
     Per Wellpoint                             11/        1,629,159,259      1,599,692,059     28,382,567       1,084,633
     Asset Variance                            12/                    0          1,146,931     (1,160,008)         13,077


Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                                   8
ENDNOTES

  1/ We determined the NGS Medicare segment pension assets as of January 1, 2006, based on our segmentation audits of Maine, New
     Hampshire, and AdminaStar Federal (A-07-13-00404, A-07-13-00406, and A-07-13-00408, respectively). Maine and New
     Hampshire merged with AdminaStar Federal, renamed NGS, effective January 1, 2007. The amounts shown for the “Other”
     segment represent the difference between the Total Company and the Medicare segment. All pension assets are shown at market
     value.

  2/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements
     before current year contributions in order to avoid incurring unallowable interest. Prepayment credits are transferred to the
     Medicare segment as needed to cover funding requirements.

  3/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal Revenue
     Service Forms 5500. We allocated Total Company contributions to the Medicare segment based on the ratio of the Medicare
     segment funding target divided by the Total Company funding target. Contributions in excess of the funding targets were treated
     as prepayment credits and accounted for in the “Other” segment until needed to fund pension costs in the future.

  4/ The “Other” transactions in 2006 represent the mergers of the WellPoint Health Networks, Inc., Pension Accumulation Plan
     (Prior PAP Plan) and Empire Blue Cross and Blue Shield Cash Balance Pension Plan (Prior Empire Plan) into the WellPoint Cash
     Balance Pension Plan. The Prior PAP Plan merged into the WellPoint Cash Balance Pension Plan on June 30, 2006. We
     determined the BCBSGA Medicare segment pension assets as of June 30, 2006, based on our prior segmentation audit of
     BCBSGA (A-07-10-00344, issued June 20, 2011). The Prior Empire Plan merged into the WellPoint Cash Balance Pension Plan
     on December 31, 2006. We determined the Empire Medicare segment pension assets as of December 31, 2006, based on our prior
     segmentation audit of Empire (A-07-07-00253, issued April 15, 2008). The amounts shown for the “Other” segment represent the
     difference between the Total Company and the Medicare segment. All pension assets are shown at market value.

  5/ We obtained investment earnings from the actuarial valuation reports. We allocated investment earnings based on the ratio of the
     segment’s weighted average value (WAV) of assets to Total Company WAV of assets as required by the CAS.

  6/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained the benefit payments
     from documents provided by BCBSGA.

  7/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

  8/ We identified participant transfers between segments by comparing valuation data files provided by BCBSGA. Asset transfers
     were equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS.

  9/ The “Other” transactions in 2009 represent the acquisition of DeCare Dental, LLC, on April 8, 2009. Effective December 31,
     2009, the DeCare Dental Pension Plan merged into the WellPoint Cash Balance Pension Plan. We obtained the DeCare pension
     asset amount as of April 2009 from WellPoint’s 2010 actuarial valuation report. These “Other” transactions did not impact the
     Medicare segment pension assets.

 10/ The BCBSGA Medicare segment terminated effective May 31, 2009. The pension assets are presented for BCBSGA as of May
     31, 2009. The pension assets for the Total Company, “Other” segment, and NGS segment are presented as of January 1, 2010.

 11/ We obtained the BCBSGA asset amount as of May 31, 2009, and the NGS asset amount as of January 1, 2010, from WellPoint’s
     actuarial consulting firm.

 12/ The asset variance represents the difference between our calculation of Medicare segment pension assets and WellPoint’s
     calculation of the Medicare segment pension assets.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                                               9
          APPENDIX C: FEDERAL REQUIREMENTS RELATED TO PENSION
             SEGMENTATION AND SEGMENT CLOSING ADJUSTMENT

PENSION SEGMENTATION

Federal Regulations

Federal regulations (CAS 413.50(c)(8)) require that an adjustment be made for transfers
(participants who enter or leave the segment) if the transfers materially affect the segment’s ratio
of pension plan assets to actuarial accrued liabilities.

Federal regulations (CAS 412.50(a)(4)) require that contributions in excess of the pension cost
assigned to the period be recognized as prepayment credits and accumulated at the assumed
valuation interest rate until applied to future period costs. Prepayment credits that have not been
applied to fund pension costs are excluded from the value of assets used to compute pension
costs.

Federal regulations (CAS 413.50(c)(7)) require that the asset base be adjusted by contributions,
permitted unfunded accruals, income, benefit payments, and expenses. For plan years beginning
after March 30, 1995, the CAS requires investment income and expenses to be allocated among
segments based on the ratio of the segment’s WAV of assets to Total Company WAV of assets.

Medicare Contracts

The Medicare contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).”

SEGMENT CLOSING ADJUSTMENT

Federal Regulations

Federal regulations (CAS 413.50(c)(12)) state:



Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                 10
        If a segment is closed, if there is a pension plan termination, or if there is a
        curtailment of benefits, the contractor shall determine the difference between the
        actuarial liability for the segment and the market value of the assets allocated to
        the segment, irrespective of whether or not the pension plan is terminated. The
        difference between the market value of the assets and the actuarial accrued
        liability for the segment represents an adjustment of previously-determined
        pension costs.

        (i) The determination of the actuarial accrued liability shall be made using the
        accrued benefit cost method. The actuarial assumptions employed shall be
        consistent with the current and prior long term assumptions used in the
        measurement of pension costs….

        (ii) … The market value of the assets shall be reduced by the accumulated value
        of prepayment credits, if any. Conversely, the market value of assets shall be
        increased by the current value of any unfunded actuarial liability separately
        identified and maintained in accordance with 9904.412-50(a)(2).

        (iii) The calculation of the difference between the market value of the assets and
        the actuarial accrued liability shall be made as of the date of the event (e.g.,
        contract termination, plan amendment, plant closure) that caused the closing of
        the segment, pension plan termination, or curtailment of benefits. If such a date is
        not readily determinable, or if its use can result in an inequitable calculation, the
        contracting parties shall agree on an appropriate date.

        (iv) Pension plan improvements adopted within 60 months of the date of the event
        which increase the actuarial accrued liability shall be recognized on a prorata
        basis using the number of months the date of adoption preceded the event date.
        Plan improvements mandated by law or collective bargaining agreement are not
        subject to this phase-in.

The methodology for determining the Federal Government’s share of excess pension assets and
liabilities is addressed by CAS 413.50(c)(12)(vi), which states:

        The Government’s share of the adjustment amount determined for a segment shall
        be the product of the adjustment amount and a fraction. The adjustment amount
        shall be reduced for any excise tax imposed upon assets withdrawn from the
        funding agency of a qualified pension plan. The numerator of such fraction shall
        be the sum of the pension plan costs allocated to all contracts and subcontracts
        (including Foreign Military Sales) subject to this Standard during a period of
        years representative of the Government’s participation in the pension plan. The
        denominator of such fraction shall be the total pension costs assigned to cost
        accounting periods during those same years. This amount shall represent an
        adjustment of contract prices or cost allowance as appropriate. The adjustment
        may be recognized by modifying a single contract, several but not all contracts, or
        all contracts, or by use of any other suitable technique. [Emphasis added.]

Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                          11
Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension assets and
liabilities in accordance with CAS 413.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                             12
                         APPENDIX D: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE


                Calendar Year                                              Fiscal Year
               Medicare Segment                Calendar Year             Medicare Segment     Fiscal Year
                Pension Costs                  Total Medicare             Pension Costs      Total Medicare      Medicare’s
                 Charged to                   Segment Pension              Charged to       Segment Pension      Aggregate
 YEAR             Medicare                          Costs                   Medicare              Costs          Percentage
                      (A)                            (B)                        (C)                (D)             (C/D)
  1986      1/     $44,562                        $45,149                    $33,422            $33,862
  1987             107,278                        108,658                     91,599             92,781
  1988                 0                              0                       26,820             27,165
  1989                 0                              0                          0                  0
  1990                 0                              0                          0                  0
  1991                 0                              0                          0                  0
  1992                 0                              0                          0                  0
  1993              84,597                         86,855                     63,448             65,141
  1994             112,567                        113,532                    105,575            106,863
  1995             144,133                        145,369                    136,242            137,410
  1996             184,258                        185,838                    174,227            175,721
  1997             156,857                        157,171                    163,707            164,338
  1998              97,909                         98,066                    112,646            112,842
  1999                 0                              0                       24,477             24,517
  2000             185,646                        185,888                    139,235            139,416
  2001      2/                                                                54,713             54,713
  2002                                                                        18,187             18,238
  2003                                                                           0                  0
  2004                                                                           0                  0
  2005                                                                           0                  0
  2006                                                                           0                  0
  2007                                                                           0                  0
  2008                                                                        13,163             13,163
  2009                                                                        28,390             28,390

  Total     3/                                                              $1,185,851        $1,194,560           99.27%



1/ The aggregate percentage was based on the audited pension costs as determined during the pension audits related to the BCBSGA
   Medicare segment. The information for calendar years (CY) 1986 through 1993 and CYs 1994 through 2000 was obtained during
   our prior audits (A-07-94-00777, issued June 7, 1994, and A-07-07-00238, issued November 16, 2007, respectively). We
   converted these CY pension costs (January 1 to December 31) to a fiscal year (FY) basis (October 1 to September 30). We
   calculated the FY pension cost as 1/4 of the prior year’s cost plus 3/4 of the current year’s costs.


2/ The aggregate percentage was based on the audited pension costs as determined during the pension audits related to the BCBSGA
   Medicare segment. The information for FYs 2001 through 2005 was obtained during our prior audit (A-07-10-00345, issued June
   20, 2011). The information for FYs 2006 through 2009 was obtained from the current audit.

2/ We calculated the aggregate Medicare percentage by dividing the FY Medicare Segment Pension Costs Claimed for Medicare
   Reimbursement (numerator) by the FY Total Medicare Segment Pension Costs (denominator) pursuant to CAS 413.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                                         13
       APPENDIX E: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                      Report Title                                 Report Number    Date Issued
Review of Pension Costs Claimed for Medicare                       A-07-94-00777    06/07/1994
Reimbursement by Blue Cross and Blue Shield of
Georgia
Review of Pension Costs Claimed for Medicare                        A-07-07-00238   11/16/2007
Reimbursement by Blue Cross Blue Shield of Georgia for
Fiscal Years 1994 Through 2000
Review of the Pension Segmentation Requirements at                  A-07-10-00344   06/20/2011
Blue Cross Blue Shield of Georgia for the Period
January 1, 2001, to June 30, 2006
Review of Pension Costs Claimed for Medicare                        A-07-10-00345   06/20/2011
Reimbursement by Blue Cross Blue Shield of Georgia for
Fiscal Years 2001 Through 2005




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                            14
                                      APPENDIX F: AUDITEE COMMENTS




           ~National c~vernment
           }II{"        serv1ces.
                                                                                                     MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             www.wellpoint.com/ngs



             April 29, 2013

             Mr. PatrickJ. Cogley
             Regional Inspector General for Audit Services
             Office of Audit Services, Region VII
             601 East 12<h Street, Room 0429
             Kansas City, Missouri 64106

             Reference: Report Number A-07-12-00397

             Dear Mr. Cogley:

             We have received the d raft audit report from the Inspector General entitled "Blue Cross Blue
             Shield of Georgia Overstated its Medicare Segment Pension Assets and Understated Medicare's
             Share of the Excess Liabilities as of May 31, 2009" and thank you for the opportunity to respond.


             National Government Services, Inc. (N GS) concurs with the findings and recommendations
             outlined in the report and will make the appropriate adjustments to Medicare segment pension
             assets as of May 31, 2009 and will work with the Centers for Medicare & Medicaid Services to
             seek reimbursement for the excess share of Medicare segment pension liabilities resulting from
             the segment closing.

             In our review of the report, the following proposed revisions wo uld enhance the accuracy and
             clarity of the report:

                          •   In the "Executive Summary" section (page i) within the "Background" caption
                              and in the "Introduction" section (page 1) within the "Background" caption,
                              please replace the second paragraph with the following which accurately
                              describes the organization:

                              On June 30, 2006, WellPoint Health Networks Inc. Pension Accu mulation Plan
                              assets were merged into the WellPoint Cash Balance Pension Plan which
                              included the BCBSGA Medicare segment. On January 1, 2007, WellPoint, Inc.
                              ("WellPoint") consolidated its Government contracting segments into one
                              subsidiary called National Government Services, Inc. ("NGS"). This
                              consolidation did not include the BCBSGA Medicare segment, which was
                              maintained separately from other Medicare operations. Thus, although we are




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                           15
           ....LNational G~vernme--.:it
            )II{"     serv1ces.
                                                                                                         MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             W>NVV.wellpoint.com/ngs



             April 29, 2013
             Page 2

                              addressing this report to NGS, we will associate the term BCBSGA with our
                              findings and recommendations regarding the segmentation.

                          •   On page iii of the Table of Contents, item B under Appendixes should read:
                              Statement of Market Value of Pension Assets for the Wel!Point Cash Balance
                              Pension Plan for the Period June 30, 2006, to January 1, 2010.


                          •   On page 2, second paragraph under "Findings", in the first line capitalize the "p"
                              in "plan".

                          •   On page 8, the second row of the page heading should state "For the WellPoint
                              Cash Balance Pension Plan" vs. "WellPoint Inc. Cash Balance Pension Plan".

                          •   On page 9, in the first endnote, please capitalize the "s" in "Adminastar" .

                          •   On page 9, please use the following verbiage to accurately reflect the statements
                              conveyed in endnote #4:

                              The "Other" transactions in 2006 represent the mergers of the Wel!Point Health
                              Networks, Inc. Pension Accumulation Plan ("Prior PAP" Plan") and Empire Blue
                              Cross and Blue Shield Cash Balance Pension Plan ("Prior Empire Plan") into the
                              WellPoint Cash Balance Pension Plan. The Prior PAP Plan merged into the
                              WellPoint Cash Balance Pension Plan on June 30, 2006. We determined the
                              BCBSGA Medicare segment pension assets as of June 30, 2006, based upon our
                              p rior segmentation audit of BCBSGA (A-07010-00344, issued June 20, 2011). The
                              Prior Empire Plan merged into the WellPoint Cash Balance Pension Plan on
                              December 31, 2006. We determined the Empire Medicare pension assets as of
                              December 31, 2006, based upon our prior segmentation audit of Empire (A-07-07-
                              00253, issued April15, 2008). The amounts shown for the "Other" segment
                              represent the difference between the Total Company and the Medicare
                              segment. All pension assets are shown at market value.




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                              16
           ....LNational G~vernme--.:it
            )II{"     serv1ces.
                                                                                                           MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             W>NVV.wellpoint.com/ngs



             April 29, 2013
             Page3

                          •   On page 9, please use the following verbiage to accurately reflect the statements
                              conveyed in endnote #9:

                              The "Other" transactions in 2009 represent the acquisition of DeC are Dental, LLC
                              on April8, 2009. Effective December 31,2009, the DeCare Dental Pension Plan
                              merged into the WellPoint Cash Balance Pension Plan. These "Other"
                              transactions did not impact the Medicare segment pension assets.

                          •   On page 9, please capitalize the "p" in "Wellpoint" to correctly spell the
                              organization's name in endnote #11 and #12.


             We appreciate the opportunity to respond to this draft report. If you have any further
             questions, I can be reached at 414-459-5606 or via email at todd.reiger@wellpoint.com.

             Sincerely,
                                        Digitally ~gned by
                                        todd.reiger@INellpoint.com
                                        DN: m =todd.reiger@wellpoint.com
                                        Date: 2013.04.2911:50:30 -04'00'

             Todd W. Reiger, CPA
             Medicare Chief Financial Officer
             National Government Services, Inc.

             CC:              Michael Kapp - NGS
                              Dave Marshall- N GS
                              Jeff Hannah - NGS
                              Jim Maguire - NGS
                              Matt Hughes - NGS
                              Jim Elmore - NGS
                              Joanne lmel- WellPoint
                              Marilyn Bryan- CMS
                              Jenenne Tambke- OIG




Blue Cross Blue Shield of Georgia Pension Segmentation (A-07-12-00397)                                                17
